No.

IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA,
Respondent,
-vBRYAN JAMES COLLINS,
Petitioner.
On petition for writ of certiorari to the
United States Court of Appeals for the Fifth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

Matt Zimmerman
Blizzard & Zimmerman, P.L.L.C.
Texas Bar No. 24084642
441 Butternut St.
Abilene, Texas 79602
Ph. 325-676-1000
Fax. 325-455-8842
Email.
matt.zimmerman@blizzardlawfirm.com
Court-Appointed Attorney for
Appellant Bryan James Collins

1

No.

IN THE SUPREME COURT OF THE UNITED STATES
UNITED STATES OF AMERICA,
Respondent,
-vBRYAN JAMES COLLINS,
Petitioner.
On petition for writ of certiorari to the
United States Court of Appeals for the Fifth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
To the Supreme Court of the United States:
Mr. Collins respectfully seeks leave to proceed in forma pauperis. With this
motion he has filed a petition for a writ of certiorari.
Mr. Collins is indigent. Mr. Zimmerman was appointed by the U.S. District
Court under the Civil Justice Act of 1964, 18 U.S.C. ยง 3006A, to represent him in
his federal direct appeal. Zimmerman has not received any funds, or the promise of
any funds, from any other source other than under the Act for payment of legal
fees forappeal.
2

For the reasons set forth above, Petitioner respectfully prays that this Court
grant leave to proceed in forma pauperis.
Respectfully submitted:
By:

/s/ Matt Zimmerman

Matt Zimmerman
TBN: 24084642

Matt Zimmerman
Blizzard & Zimmerman, PLLC
Texas Bar No. 24084642
441 Butternut St.
Abilene, Texas 79602
Ph. 325-676-1000
Fax. 325-455-8842
Email.
matt.zimmerman@blizzardlawfirm.com
Court-Appointed Attorney for
Appellant Bryan James Collins

3

CERTIFICATE OF SERVICE
I hereby certify that, on or before July 19, 2021, a true and correct copy of
this motion was mailed by first-class U.S. mail to:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W.; Room 5616
Washington, DC 20530-0001

/s/ Matt Zimmerman

Matt Zimmerman
441 Butternut St.
Abilene, Texas 79601
Ph. 325-676-1000
Fax. 325-455-8842

4

